        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's Energy
Innovation Hubs




OAS-M-13-08                    September 2013
                                  Department of Energy
                                    Washington, DC 20585

                                       September 30, 2013


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
                 RENEWABLE ENERGY
               ASSISTANT SECRETARY FOR NUCLEAR ENERGY
               ACTING DIRECTOR, OFFICE OF SCIENCE


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Energy Innovation Hubs"

BACKGROUND

The Department of Energy's (Department) Energy Innovation Hubs (Hubs) initiative addresses
research challenges with potentially high impact on our national energy security. Such
challenges have proved the most resistant to solution by conventional research and development
management structures. Each Hub focuses on a single topic, with work ranging from basic
research, through engineering development, to facilitating commercialization by industry. The
balance of these activities differs from one Hub to the next, depending on technology readiness.
The Hubs are composed of highly collaborative teams integrating expertise in multiple scientific
disciplines, engineering fields and technology areas. Each Hub is expected to become a world-
leading research and development center in its topical area by bringing together top talent across
the full spectrum of research and development performers, including universities, private
industry, non-profits and Government laboratories.

From Fiscal Years (FY) 2010 through 2012, there were three active Hubs: (1) the Energy
Efficient Buildings Hub (Buildings Hub); (2) the Modeling and Simulation Hub (Modeling
Hub); and (3) the Fuels from Sunlight Hub (Sunlight Hub). The Department recently awarded
funding for the Batteries and Energy Storage Hub and the Critical Materials Hub. The
Department has committed to investing a total of $606 million in the Hubs. Since FY 2010,
Congress has appropriated a total of $226.9 million to the Hubs. The Department requested
$136 million for FY 2013 to operate five Hubs and add another Hub on electricity systems.

Due to the significant level of funding, we initiated this audit to determine whether the
Department was effectively managing its Hubs program. Our work focused on the three Hubs
established at the time of our review.

RESULTS OF AUDIT

Generally, the Hubs initiative was satisfying the specific Federal, Department and programmatic
requirements that we evaluated during our review. Most notably, the Department selected each
                                                 2


Hub following a rigorous merit review process using criteria described in the Funding
Opportunity Announcement. Federal officials had also reviewed and approved management
plans for each Hub. Additionally, the Hubs were reporting meeting performance goals within
scheduled time frames. Finally, a number of Hubs had been externally reviewed and corrective
action plans had been developed to improve performance in areas such as the establishment of
deliverables and milestones. Although our review did not identify material concerns regarding
Hub operations, we identified several areas warranting management attention by the Department.
Specifically, for the three Hubs we reviewed, the Department had not:

    • Effectively managed conference and meeting costs. The Hubs claimed costs for
      "working" meals and meeting refreshments that were unreasonable when considered in
      light of recent attempts to reduce and control travel and conference-related spending. For
      example, the Buildings and Modeling Hubs frequently provided group meals and
      refreshments at meetings and conferences, spending $103,472 through May 2012.
      Although not as frequent, the Sunlight Hub spent $123,808 on two annual "all-hands"
      conferences where meals and refreshments were served.

    • Always ensured conflict of interest certifications were obtained and/or retained for all
      external merit reviewers and Federal employees participating in the Hub selection
      process as required by Federal Regulation 10 CFR 600.13, Merit Review, and the
      Department's Merit Review Guide.

Excessive conference and meeting costs occurred because the Department had not provided
sufficient oversight over these costs. In fact, officials at one Hub conveyed to us that they had
received advance approval to provide meals and refreshments based on correspondence received
from the responsible contract specialist. We confirmed that this advance approval was provided
without an estimated total cost of providing meals and refreshments. The missing conflict of
interest certifications were due to poor recordkeeping practices. Although Department officials
stated that they had obtained the certifications, they did not ensure that the certifications were
maintained in the award files.

During this period of budget austerity and emphasis on spending reductions, it is important for
Federal entities to control travel and conference-related costs. Additionally, although we did not
identify any specific conflicts of interest, the Department's failure to retain conflict of interest
certifications prevents it from ensuring that individuals involved in the award process were free
of personal monetary interests or relationships that could impair their impartiality. Without
improvement in controls over these areas, the Department is at risk of reimbursing unreasonable
costs and compromising the integrity and impartiality of the selection process.

We made several recommendations that, if implemented, should help improve controls over the
Hubs program.

MANAGEMENT REACTION AND AUDITOR COMMENTS

Management concurred with our recommendations and indicated that it had completed or
initiated corrective actions designed to address our concerns. We found that reported corrective
actions were responsive to our recommendations. Management's comments are discussed in
more detail in the body of the report and are included in Appendix 3.
                                            3


Attachment

cc: Deputy Secretary
    Acting Under Secretary for Science and Energy
    Chief of Staff
REPORT ON THE DEPARTMENT OF ENERGY'S ENERGY
INNOVATION HUBS




TABLE OF
CONTENTS

Program Management

Details of Finding ......................................................................................................................1

Recommendations ......................................................................................................................4

Management Reaction and Auditor Comments .........................................................................5


Appendices

1. Objective, Scope and Methodology .....................................................................................6

2. Prior Reports ........................................................................................................................8

3. Management Comments ......................................................................................................9
DEPARTMENT OF ENERGY'S ENERGY INNOVATION HUBS
Background

From Fiscal Years (FY) 2010 to 2012, the Department of Energy (Department) had three active
Energy Innovation Hubs (Hubs) as part of its initiative to address research challenges with
potentially high impact on our national energy security. Such challenges have proved the most
resistant to solution by conventional research and development management structures. The
Department had awarded cooperative agreements to Pennsylvania State University for the
Energy Efficient Buildings Hub (Buildings Hub) and to California Institute of Technology for
the Fuels from Sunlight Hub (Sunlight Hub). The Department also awarded the Modeling and
Simulation Hub (Modeling Hub) to the Consortium for Advanced Simulation of Light Water
Reactors, led by Oak Ridge National Laboratory, managed and operated by UT-Battelle, LLC.
The Hubs are large-scale, multi-disciplinary, highly collaborative teams of scientists and
engineers working to achieve a specific high priority goal. Federal oversight and program
management of each Hub is the responsibility of the Department's program office with budget
authority for that Hub. The Office of Energy Efficiency and Renewable Energy (EERE) had
responsibility for the Buildings Hub; the Office of Nuclear Energy (Nuclear Energy) had
responsibility for the Modeling Hub; and the Office of Science (Science) had responsibility for
the Sunlight Hub. Moreover, the Department established a working group of senior technical
program managers that met regularly to coordinate the Hubs program across these program
offices.

Hub Management

Generally, the Hubs initiative was satisfying the specific Federal, Departmental and
programmatic requirements that we evaluated in our review. We found that each Hub was
selected following a rigorous merit review process using established criteria. Federal officials
had also reviewed and approved management plans for each Hub and the Hubs were reporting
meeting performance goals within scheduled time frames. Finally, a number of Hubs had been
externally reviewed and corrective action plans had been developed to improve performance in
areas such as the establishment of deliverables and milestones. During our review, however, we
identified areas of potential cost savings related to conferences and meetings, as well as
weaknesses in the internal controls over conflict of interest disclosure procedures for merit
reviewers during the award selection process.

                             Conference and Meeting Cost Savings

Our review of the three Hubs identified an opportunity for the Department to reduce conference
and meeting costs, particularly expenses for "working" meals and refreshments. The Hubs
claimed costs for meals and refreshments that we considered unreasonable.

Federal policy generally prohibits the use of Federal funds to pay for meals and refreshments
unless a person is on official travel, it relates to a gathering to disseminate information, or
improves productivity. The Federal Travel Regulation allows agencies managing a conference
to provide light refreshments using appropriated funds but only if the majority of the conference
attendees are on official travel status. The Federal Acquisition Regulation does not specifically


Page 1                                                                        Details of Finding
address working meals and refreshments but does contemplate that such costs could be allowed
if associated with certain meetings, conferences, and symposia where productivity would be
improved. The Office of Inspector General has completed a number of reviews in which we
reported unreasonable and inappropriate meal and refreshment costs. Appendix 2 contains a list
of these reviews, which, in some instances, identified the need to develop specific policies and
guidance related to conference management.

Of particular concern, the Buildings and Modeling Hubs frequently provided group meals and
refreshments at meetings and conferences, expenditures that amounted to $103,472 through May
2012. To illustrate the frequency and cost of these claims, we noted that the:

    •   Buildings Hub spent $50,157 to provide working lunches on 52 occasions and meeting
        refreshments on 48 additional occasions during an 18-month period. Meals during one
        major conference event accounted for $12,780 of this amount.

    •   Modeling Hub provided meals for 38 events and spent $53,315 on group meals and
        refreshments during a 23-month period. Meals for two meeting events during this
        timeframe accounted for $24,589 of the total amount spent.

While the Sunlight Hub (a Hub split between two locations) provided meals and refreshments
less frequently, this Hub organized larger, more costly conferences. Through May 2012, the
Sunlight Hub spent $157,991 on conferences and meetings where meals and refreshments were
served. Of this amount, $123,808 was spent to host two annual all-hands conferences and
another $11,411 was spent on an annual performance review.

Also of note, two Hubs returned $14,933 when presented with the results of our review of
transactions, including $2,494 from the Buildings Hub and $12,439 from the Sunlight Hub.
These costs primarily related to meals served at the end of the day, social events, or charges
exceeding cost benchmarks. Further, we found that two Federal employees failed to reduce per
diem or otherwise contribute towards meals provided by the Hubs while on travel status. The
Federal Travel Regulation requires travelers to deduct the appropriate amount from their travel
reimbursement when meals are furnished at conferences. Information regarding this matter was
provided to appropriate officials.

                                  Conflict of Interest Certifications

The EERE and Nuclear Energy Program Offices did not have conflict of interest certifications
for some of their merit reviewers involved in the Hub selection processes. Federal Regulation
10 CFR 600.13, Merit Review, and the Department's Merit Review Guide require that all
discretionary financial assistance awards be awarded through a merit-based selection process
which involves a merit review process. Additionally, the Department's Merit Review Guide
requires that all merit reviewers sign conflict of interest certificates prior to their participation to
certify they will not review applications for which they have a conflict of interest or in which a
reasonable person may question their impartiality. Despite these documentation requirements,
Nuclear Energy did not have signed conflict of interest certifications for one external technical
reviewer and three members of its Federal Merit Review Panel that oversaw the selection of the

Page 2                                                                              Details of Finding
Modeling Hub award. EERE did not have conflict of interest certifications for any of its Federal
employees and three external merit reviewers involved in the selection of the Buildings Hub.

Although the certifications were not available for our review, we did not identify any signs of
conflicts of interest during our review of the selection processes.

Department and Hub Oversight

Neither the Department nor the Hubs had always provided sufficient oversight of costs. In
particular, although responsible for ensuring Federal resources are used efficiently and
effectively to achieve intended program results per Department Order 413.1b, Internal Control
Program, the Department had not taken sufficient action to limit the costs of meals and
conference costs incurred by the Hubs. For example, we noted that the Department was not
always aware of the extent of such costs. In at least one case, the Contract Specialist associated
with the Buildings Hub provided advance approval to charge meals and refreshments to the
agreement and assumed that lunches would be provided during multiple meetings. This advance
approval was provided without obtaining an estimate of the total costs of providing the meals
and refreshments, although the Department had issued guidance to Contracting Officers designed
to control these types of costs.

Additionally, the Department had not required the Hubs to detail the estimated costs for
conferences in proposed budgets, the point at which this type of cost analysis should be
performed according to the Department's Guide to Financial Assistance. The working meals and
refreshments were justified as being an inseparable part of planned events and because they
increased productivity by allowing for collaboration and interaction of the members. We
concluded, however, that the Department needs to put more emphasis on containing such costs
during the current period of budget austerity throughout the Government. Furthermore, although
the Department had financial oversight procedures, we found the financial oversight was not
always sufficient to ensure the accuracy and integrity of amounts paid. Specifically, Program
officials were not always aware what the Hubs were claiming because they reviewed summary-
level cost information typical of these agreements and had not obtained or reviewed detailed
costs, such as invoices supporting expenditures.

Finally, the absence of conflict of interest certifications was the result of poor recordkeeping
practices by the Department. Although Department officials stated that they had obtained the
certifications, they did not ensure that the certifications were maintained in the award files.
Nuclear Energy officials recalled obtaining the signed conflict of interest certifications; however,
the forms were not included in the official award file and could not be found. Because of our
inquiries, Nuclear Energy requested four individuals sign new conflict of interest certifications
attesting to their lack of conflicts and added them to the award file. EERE officials could not
explain why the certifications were missing from their files.

Furthermore, Nuclear Energy did not utilize an electronic merit review management system
during the selection process, a practice which would have provided additional assurance conflicts
did not exist. Both EERE and Science utilized the Proposal Evaluation and Electronic Review
Network (PeerNet) developed by the Oak Ridge Institute for Science and Education, but are

Page 3                                                                          Details of Finding
developing office-specific systems. A Nuclear Energy official stated that PeerNet was not part
of Nuclear Energy's standard selection process or part of the merit review plan approved for the
Hub selection. PeerNet is a web-based application that helps the Department monitor its merit
reviewers for conflict of interest and bias throughout the peer review process. In addition to
capturing signed conflict of interest certifications at the beginning and end of an application
review, merit reviewers must acknowledge electronically that they do not have conflicts every
time they access a proposal in PeerNet. Accordingly, an electronic system such as PeerNet
would have provided some assurance that merit reviewers were impartial and free of conflicts
should merit reviewers fail to sign the required disclosure statements.

Impact

Without improvement in controls over the areas we identified, the Department is at risk of
reimbursing unreasonable costs and compromising the integrity and impartiality in its selection
process. During this period of budget austerity with an emphasis on reducing spending within
the Federal community, conferences, meals, and refreshments are logical places to control costs.
While there are benefits in bringing all members together at conferences and meetings, the
Department must carefully balance when and how often to allow Hubs to provide them.
Although we did not identify any signs of conflicts of interest during the Hub selection process,
the failure to obtain conflict of interest certifications means that the Department cannot prove its
merit reviewers were free of personal monetary interests or relationships in which a reasonable
person may question the reviewer's impartiality.

RECOMMENDATIONS

To address the issues noted in this report and ensure that the Energy Innovation Hubs maximize
their pursuit of science, we recommend that the Assistant Secretary for Energy Efficiency and
Renewable Energy, the Assistant Secretary for Nuclear Energy, and the Acting Director of the
Office of Science:

   1. Explore cost reduction opportunities related to conferences, meals and refreshment costs;

   2. Direct the Contracting Officers to make official determinations regarding the
      reasonableness and allowability of costs incurred for conferences, meals and
      refreshments; and

   3. Ensure use of a merit review management system with ability to capture conflict of
      interest acknowledgements, such as the PeerNet system, during future selection
      processes.

We also recommend that the Assistant Secretary for Energy Efficiency and Renewable Energy
and the Assistant Secretary for Nuclear Energy:

   4. Take action to recover travel funds from Federal employees that did not reduce per diem
      for meals provided at Hub conferences; and


Page 4                                                                        Recommendations
   5. Take action to address internal control weaknesses related to recordkeeping/document
      retention of merit reviewers' Conflict of Interest/Nondisclosure Statements.

MANAGEMENT REACTION

Nuclear Energy, Science, and EERE concurred with our recommendations and indicated that
corrective actions designed to address our concerns had been completed or initiated. The three
program offices supported exploring cost reduction opportunities with regard to conferences,
meals, and refreshment costs, and stated either in official comments attached to our report or in
separate communications that contracting officers would make official determinations regarding
the reasonableness and allowability of costs we questioned. Additionally, the program offices
either had merit review management systems in place or were exploring the use of such systems
to manage conflict of interest issues and help with recordkeeping. Further, EERE and Nuclear
Energy agreed to issue notices to Federal travelers reminding them of meal per diem
requirements, including the requirement to deduct meals provided while on travel from their per
diem claims on travel vouchers. The Federal employees who failed to reduce per diem for meals
provided by the Hub agreed to reimburse the Department.

Science disagreed with a statement in the draft audit report that it felt implied that the Sunlight
Hub should not have held its annual all-hands meetings. While it agreed that video conferencing
is an essential tool to facilitate long-distance meetings at low marginal cost, it stated that there
was still a need for researchers to gather in large groups for in-person meetings. Science stated
that the tacit knowledge transferences and spontaneous interpersonal exchanges of such meetings
are essential to scientific collaboration.

AUDITOR COMMENTS

The reported corrective actions were responsive to our recommendations. We made changes to
the final report in response to comments we received from Science concerning the Sunlight
Hub's all-hands conferences and the availability of video conferencing capabilities. It was not
our intent to imply that face-to-face meetings should not be held. We intended to illustrate the
costs of such conferences and point out an area in which cost savings might be possible. Nuclear
Energy's management, for instance, stated that the Modeling Hub had already realized savings
using collaboration technologies to reduce the number of face-to-face meetings. Formal
comments from EERE, Nuclear Energy, and Science comments are included in Appendix 3.




Page 5                                         Management Reaction and Auditor Comments
Appendix 1
                      OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of this audit was to determine whether the Department of Energy (Department)
was effectively managing the Energy Innovation Hubs (Hubs) Program.

SCOPE

We conducted the audit from June 2012 to September 2013, at the Offices of Energy Efficiency
and Renewable Energy, Nuclear Energy, and Science in the Washington, DC, area. We also
visited each of the Hubs – the Energy Efficient Buildings Hub located at Pennsylvania State
University in University Park and at the Navy Yard in Philadelphia, Pennsylvania; the Modeling
and Simulation Hub at the Oak Ridge National Laboratory in Oak Ridge, Tennessee; and the
Fuels from Sunlight Hub located at California Institute of Technology in Pasadena, California
and at Lawrence Berkeley National Laboratory in Berkeley, California. The scope of the audit
covered the three Hubs active during Fiscal Years 2010 through 2012.

METHODOLOGY

To accomplish the audit objective, we:

    • Reviewed and evaluated relevant laws and regulations related to the Hubs, including
      financial assistance awards administration.

    • Interviewed personnel from each of the program offices responsible for Hub
      management.

    • Reviewed the Funding Opportunity Announcement, merit review information and
      selection process and documentation, including the Department's processes for
      identifying conflicts of interest. We reviewed conflicts of interest that had been
      identified by the program offices, including any situations in which reviewers
      acknowledged having conflicts and the mitigating actions taken by the program. We also
      looked for the appearance of conflicts of interest among merit reviewers.

    • Conducted site visits to the three Hubs located in Philadelphia, Pennsylvania, Oak Ridge,
      Tennessee, and Berkeley and Pasadena, California, to observe the facilities and observe
      assets purchased.

    • Held discussions with management personnel at each of the Hubs.

    • Selected and reviewed a judgmental sample of financial transactions recorded by each of
      the Hubs to ensure the transactions were appropriate and sufficiently documented. At the
      time of our review, the Fuels from Sunlight Hub and Modeling and Simulation Hub could
      provide financial transactions recorded through June 2012. The Energy Efficient


Page 6                                                  Objective, Scope and Methodology
Appendix 1 (continued)
       Buildings Hub could provide financial transactions recorded through April 2012. There
       were 53,237 financial transactions totaling over $88 million at the three Hubs. We
       judgmentally selected transactions based on the dollar amount and description,
       attempting to choose at least one transaction from each of the Hub's cost categories. As a
       result, we sampled 292 transactions totaling nearly $17 million. Because our sample was
       not statistical, we could not project to the population. For our review, we traced the costs
       to supporting invoices and tested compliance with financial assistance requirements as
       prescribed by the terms and conditions of the awards.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Accordingly, we assessed
significant internal controls and compliance with laws and regulations necessary to satisfy the
audit objective. In particular, we assessed the implementation of the GPRA Modernization Act of
2010 and found that the Office of Nuclear Energy had established performance measures related
to its Hub, but the Offices of Science and Energy Efficiency and Renewable Energy had not
established performance measures for the Hubs. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. Finally, we conducted an assessment of computer-processed data relevant to our audit
objective and found it to be reliable.

Management waived an exit conference.




Page 7                                                     Objective, Scope and Methodology
Appendix 2
                                    PRIOR REPORTS


   • Audit Report on Management Controls over Meal Expenses at Management and
     Operating Contractors (OAS-M-05-04, April 2005). The Department of Energy
     reimbursed four contractors for $255,000 for local meal costs in Fiscal Year 2003 that
     could have been better used for mission-related activities.

   • Audit Report on University of California's Costs Claimed and Related Internal Controls
     for Operation of the Los Alamos National Laboratory (DOE/IG-0596, April 2003). This
     audit projected $3.7 million out of $4.2 million claimed in Fiscal Years 2000 through
     2002 represented questionable costs for local meals provided to employees.

   • Inspection Report on Office of Science Laboratory Conferences (DOE/IG-0794, May
     2008). The Oak Ridge National Laboratory incurred unreasonable costs associated with
     conference-provided meals when it spent $230,000 for upscale and elaborate meals for
     318 persons during a 4-day conference in 2007.

   • Inspection Report on Sandia National Laboratory-California Procurement Card
     Program (DOE/IG-0754, January 2007). The inspection found that Sandia National
     Laboratory-California had incurred $89,649 during an 11-month period for 218 catered
     meals for in-house team celebrations, business meetings, and guest visits.




Page 8                                                                         Prior Reports
Appendix 3
             MANAGEMENT COMMENTS




Page 9                             Management Comments
Appendix 3 (continued)




Page 10                  Management Comments
Appendix 3 (continued)




Page 11                  Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
Appendix 3 (continued)




Page 14                  Management Comments
Appendix 3 (continued)




Page 15                  Management Comments
Appendix 3 (continued)




Page 16                  Management Comments
                                                                    IG Report No. OAS-M-13-08


                             CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:

                U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig


    Your comments would be appreciated and can be provided on the Customer Response Form.
